   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2007 AND FY 2006
            Highway Trust Fund

        Report Number: QC-2008-006
       Date Issued: November 9, 2007
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of                                           Date:    November 9, 2007
           Audited Financial Statements for
           FY 2007 and FY 2006,
           Highway Trust Fund
           Report Number: QC-2008-006

  From:    Calvin L. Scovel III                                                     Reply to
                                                                                    Attn. of:   JA-20
           Inspector General

    To:    The Secretary

           The audit of the Highway Trust Fund (HTF) Financial Statements as of and for the
           years ended September 30, 2007, and September 30, 2006, was completed by
           KPMG LLP of Washington, D.C. (see Attachment). We performed a quality
           control review of the audit work to ensure that it complied with applicable
           standards. These standards include the Chief Financial Officers Act; Generally
           Accepted Government Auditing Standards; and Office of Management and Budget
           (OMB) Bulletin 07-04, “Audit Requirements for Federal Financial Statements.”

           KPMG concluded that the consolidated financial statements present fairly, in all
           material respects, the financial position of HTF as of September 30, 2007, and
           September 30, 2006, and its net costs, changes in net position, and budgetary
           resources for the years then ended, in conformity with accounting principles
           generally accepted in the United States. On June 20, 2007, OMB waived the
           requirement for the Department to present separate HTF financial statements for
           Fiscal Year 2007 and beyond. The Department is choosing to present separate
           HTF financial statements for Fiscal Year 2007, but does not intend to so in the
           future.

           HTF agencies 1 in general, and the Federal Highway Administration (FHWA) in
           particular, made significant improvements in the processes used to prepare
           financial statements, analyses of abnormal balances, and oversight of parent/child

           1
               The Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit
               Administration, Federal Motor Carrier Safety Administration, Federal Railroad Administration, and Research and
               Innovative Technology Administration.
                                                                              2


allocation transfers. This was the first time since the FY 2001 financial statement
audit that no material weaknesses were reported for the HTF financial statements.

The report presented significant deficiencies in three areas:

       1. Journal Entries and Account Relationships

       2. General Controls over Financial Management Systems

       3. Federal Transit Administration Grant Accrual

KPMG made nine recommendations for corrective action; we agree with all and,
therefore, are making no additional recommendations. The Assistant Secretary for
Budget and Programs/Chief Financial Officer concurred with the significant
deficiencies; generally agreed with the recommendations; and planned to submit a
detailed corrective action plan by December 31, 2007. In accordance with DOT
Order 8000.1C, the corrective actions taken in response to the recommendations
are subject to follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of representatives of the HTF
agencies, the Office of Financial Management, and KPMG. If we can answer any
questions, please call me at (202) 366-1959 or Rebecca C. Leng, Assistant
Inspector General for Financial and Information Technology Audits, at
(202) 366-1496.

Attachment

                                          #



cc: Federal Highway Administrator
    National Highway Traffic Safety Administrator
    Federal Transit Administrator
    Federal Motor Carrier Safety Administrator
    Federal Railroad Administrator
    Research and Innovative Technology Administrator
